PROOF OF SERVICE

I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify
that on the 25th day of March, 2021, three (3) copies of the Brief Amici Curiae of the
National Legal Foundation, et al., supporting granting the Petition in No. 20-1158,
The North American Mission Board of the Southern Baptist Convention, Inc. v.
McRaney, were served by first-class mail, postage pre-paid, on the following:
Matthew Theodore Martens
Counsel of Record for Petitioner
WilmerHale
1875 Pennsylvania Avenue, NW
Washington, DC 20006
Scott E. Gant
Counsel of Record for Respondent
Boies Schiller Flexner LLP
1401 New York Ave., NW
Washington, DC 20005

/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

